CERTIFICATE OF SERVICE
NO. TBD
Steve Cooley et al.
Petitioner(s)
v.
National Abortion Federation
Respondent(s)
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the STEVE
COOLEY ET AL. PETITION FOR WRIT OF CERTIORARI, by mailing three (3) true and correct copies of the
same by USPS Priority mail, postage prepaid for delivery to the following addresses:
Derek Foran
Morrison & Foerster LLP
425 Market Street
San Francisco, CA 94105-2482
415-268-6323
dforan@mofo.com
Counsel for National Abortion Federation

Vladimir F. Kozina
Mayall Hurley PC
2453 Grand Canal Blvd.
Stockton, CA 95207-8253
209-477-3833
Counsel for Troy Newman

Peter Breen
Thomas More Society
19 S. LaSalle Street
Suite 603
Chicago, IL 60603
312-782-1680
Counsel for David Daleiden, Biomax
Procurment Svc LLC

Lucas DeDeus

October 15, 2019
SCP Tracking: Geragos-888 West 6th Street, Ste 1100-Cover White

